                                                EMPLOYMENT AND
                                                TRAINING
                                                ADMINISTRATION


Office of Inspector General—Office of Audit 





                                                RECOVERY ACT: IN GENERAL,
                                                GRANTEES PROPERLY USED
                                                RECOVERY ACT SCSEP FUNDS TO
                                                TRAIN AND PLACE PARTICIPANTS



                                                  This report was prepared by Ollie Green and Company under
                                                  contract to the U.S. Department of Labor, Office of Inspector
                                                  General, and by acceptance, it becomes a report of the Office
                                                  of Inspector General.

                                                                        ______________________________
                                                                        Assistant Inspector General for Audit
                                                                        U.S. Department of Labor




                                                                                Date Issued:     November 7, 2012
                                                                             Report Number:       18-13-002-03-360
U.S. Department of Labor                                    November 2012
Office of Inspector General
Office of Audit
                                                            RECOVERY ACT: IN GENERAL,
                                                            GRANTEES PROPERLY USED RECOVERY
BRIEFLY…                                                    ACT SCSEP FUNDS TO TRAIN AND PLACE
                                                            PARTICIPANTS.
Highlights of Report Number 18-13-002-03-360, issued
to the Assistant Secretary for Employment and
Training.
                                                            WHAT OIG FOUND
                                                            With very few exceptions, ETA had sufficient controls to
                                                            ensure that grantees administered and awarded ARRA
WHY READ THE REPORT                                         SCSEP funds to eligible participants. Generally we found
The American Recovery and Reinvestment Act (ARRA)           that grantees trained most of the participants and
was signed into law by President Obama on                   transferred them to the regular SCSEP or other subsidy
February 17, 2009. The Act is intended to preserve and      programs on or before June 30, 2010, when ARRA
create jobs, promote the nation’s economic recovery,        funding ended. However, we could not determine the
and assist those most impacted by the recession. The        extent to which employers who participated in the On the
Recovery Act provided an additional $120 million for        Job Experience (OJE) program were properly and
Senior Community Service Employment Program                 accurately reimbursed because the OJE universe
(SCSEP) grantees to supplement their Program Year           furnished by grantees was unreliable.
(PY) 2009 funding. National and state grantees had
until June 30, 2010, to spend these funds.
                                                            WHAT OIG RECOMMENDED
The Senior Community Service Employment Program
                                                            The OIG recommended the Assistant Secretary of
(SCSEP) is a community service and work based
                                                            Employment and Training Administration:
training program for older workers. Authorized by the
Older Americans Act, the program provides subsidized,
                                                                1. 	 Direct grantees to reimburse the government for
service-based training for low-income persons 55 or
                                                                     ineligible participants.
older who are unemployed and have poor employment               2. 	 Advise grantees and sub-grantees to comply
prospects. It is intended that community service training
                                                                     with regulatory requirements, and develop and
serves as a bridge to unsubsidized employment
                                                                     implement controls for verifying and
opportunities.                                                       documenting files, timely monitoring and
                                                                     accurate reporting of participant retention.
WHY OIG CONDUCTED THE AUDIT                                     3. 	 Develop a process to report and measure
We conducted a performance audit of the use of                       placement when funding is temporary.
Recovery Act funds provided to SCSEP administered               4. 	 Implement controls for validating management
by the Department of Labor’s (DOL) Employment and                    information.
Training Administration (ETA). The audit objectives
were to determine:                                          ETA disagreed with the recommendation to develop a
                                                            process to measure placement when funding is
  (1) To what extent did ETA ensure grantees                temporary, but agreed to implement the following OIG
      administered and awarded ARRA funds properly          recommendations: recover costs for ineligible
      to eligible participants?                             participants; advise sub-grantees to document and retain
                                                            evidence of participant training, and follow-up on
  (2) To what extent have participants been trained         participant employment retention timely; and implement
      and placed under these grants and did they            procedures to improve data accuracy.
      continue employment?

  (3) To what extent were employers who participated
      in On the Job Experience (OJE) properly and
      accurately reimbursed?

READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2013/18-13-
002-03-360.pdf.
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                                        Report No.18-13-002-03-360
                                                           Prepared by Ollie Green & Company, CPA’s
                                         For U. S. Department of Labor – Office of the Inspector General


Table of Contents
Independent Auditor’s Report ...................................................................................... 1

Objective 1 — To what extent did ETA ensure grantees administered and awarded
ARRA funds properly to eligible participants? ........................................................... 4
         Overall, grantees enrolled only eligible participants.............................................. 4

         Finding 1- Grantees generally enrolled only eligible participants into the
            ARRA SCSEP program for PY 2009 with few exceptions. .............................. 4

Objective 2 — To what extent have participants been trained and placed under
these grants and did they continue employment? ..................................................... 6
         Grantees trained, but did not always document case files and conduct
            timely follow-ups to monitor employment, and grantees did not reach
            the 23 percent PY 2009 placement goal. ........................................................ 6

         Finding 2 – Grantees did not always maintain required training
            documentation in the participant case file. ...................................................... 6
         Finding 3 – Grantees did not meet the 23 percent placement goal
            established by the Department for Program Year 2009. ................................. 8
         Finding 4 – Grantee did not always conduct timely follow-ups required to
            verify continued employment......................................................................... 11

Objective 3 — To what extent were employers who participated in On the Job
Experience (OJE) properly and accurately reimbursed?......................................... 12
         Invalid data prevented the determination of how many employers
            participated in the program, but the six employers tested were properly
            and accurately reimbursed. ........................................................................... 12

         Finding 5 - Grantees did not provide a reliable OJE universe for use in our
            sampling plan. ............................................................................................... 12

Exhibits
         Exhibit 1 Recovery Act Placements .................................................................... 17
         Exhibit 2 Recovery Act Continued Employment Duration ................................... 19
         Exhibit 3 Recovery Act Audit Sites Selected ...................................................... 21

Appendices
         Appendix A Background ..................................................................................... 25
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 27
         Appendix C Acronyms and Abbreviations .......................................................... 31
         Appendix D ETA Response to Draft Report ....................................................... 33
         Acknowledgements ............................................................................................ 35
                                                                                      Recovery Act: SCSEP Program
                                                                                        Report No. 18-13-002-03-360
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                                        Report No. 18-13-002-03-360
                                               Prepared by Ollie Green & Company, CPA’s
                             For U. S. Department of Labor – Office of the Inspector General




                            Independent Auditor’s Report

Ms. Jane Oates
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The American Recovery and Reinvestment Act (ARRA) was signed into law by
President Obama on February 17, 2009. The Act is intended to preserve and create
jobs, promote the nation’s economic recovery, and to assist those most impacted by the
recession. The Recovery Act provided an additional $120 million for Senior Community
Service Employment Program (SCSEP) grantees to supplement their Program Year
(PY) 2009 funding. National and state grantees had until June 30, 2010, to spend these
funds.

We conducted a performance audit of the use of Recovery Act funds provided to
SCSEP administered by the Department of Labor’s (DOL) Employment and Training
Administration (ETA). The audit objectives were to determine:

(1)   To what extent did ETA ensure grantees administered and awarded ARRA funds
      properly to eligible participants?
(2)   To what extent have participants been trained and placed under these grants and
      did they continue employment?
(3)   To what extent were employers who participated in On the Job Experience (OJE)
      properly and accurately reimbursed?

We interviewed officials at ETA and 14 national and state grantees and reviewed
documents and available data. We statistically selected 350 of the 25,154 participants
served by the SCSEP. The audit period covered February 17, 2009, the inception date
of the Recovery Act, through June 30, 2010. We conducted this performance audit in
accordance with Generally Accepted Government Auditing Standards. These standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Additional background



                                                               Recovery Act: SCSEP Program
                                           1                    Report No. 18-13-002-03-360
                                                       Prepared by Ollie Green & Company, CPA’s
                                     For U. S. Department of Labor – Office of the Inspector General

information is detailed in Appendix A, and our objective, scope, methodology, and
criteria are detailed in Appendix B.

RESULTS IN BRIEF

ETA had sufficient controls in place to ensure that grantees administered and awarded
ARRA SCSEP funds properly to eligible participants. Of the 350 participants reviewed,
348 met the program’s eligibility criteria and only two did not. Those two participants
received benefits totaling $11,573. Preventive controls were not in place to allow these
funds to have been put to better use elsewhere.

Generally we found evidence that grantees trained most (306) of the participants.
However, Individual Employment Plans (IEP) were not available for 108 of the 350
participants (30.9 percent). IEPs must include employment goals and timelines for
achieving them. Without IEPs, there was no assurance that participants received
training that could assist them in obtaining unsubsidized employment. Additionally,
forty-four (12.6 percent) case files in our sample had no evidence of training. (Forty of
these were from the same grantee.)

We also found that most (72.0 percent) of the participants in our sample were
transferred to the regular SCSEP or other subsidy programs on or before June 30,
2010, after ARRA funding ended. After reducing the 350 to 330 participants for those
with health issues, family care, institutionalization, and death in accordance with
Training and Employment Guidance Letter (TEGL) 17-05, we found that 28
(8.5 percent) of the participants had been placed in unsubsidized employment. This
placement rate was substantially below the 23 percent goal established by the
Department for PY 2009. Of these 28 participants, 19 retained their unsubsidized
employment through the second and third quarters after exiting ARRA SCSEP.

In its PY 2009 Final ARRA Nationwide Roll-Up Report, ETA calculated the ARRA
Entered Employment Rate (EER) or placement rate as 47.6 percent (2,348 1/4,935 2).
ETA excluded from its calculation 16,808 ARRA participants who transferred to the
regular SCSEP program by June 30, 2010. This approach was not an accurate
representation of ARRA’s placement performance for the temporary funding period
February 17, 2009 through June 30, 2010 and was an overstatement of the ARRA
placement rate for PY 2009. By including the 16,808, we calculated a placement rate of
10.7 percent (2,348/21,743) for the ARRA SCSEP program.

We could not determine the extent to which employers who participated in the OJE
program were properly and accurately reimbursed because the OJE universe
(279 participants) provided was not reliable. Forty-five of the 52 participants selected in
our sample had not participated in the OJE program. Six employers provided OJE

1
  The numerator (2,348) is the number of ARRA SCSEP participants placed into unsubsidized employment by June
  30, 2010, as reported by ETA in its Final ARRA Nationwide Roll-Up Report.
2
  The denominator (4,935) is the number of ARRA SCSEP participants who exited the program by June 30, 2010, as
  reported by ETA in its Final ARRA Nationwide Roll-Up Report.

                                                                             Recovery Act: SCSEP Program
                                                      2                       Report No. 18-13-002-03-360
                                                Prepared by Ollie Green & Company, CPA’s
                              For U. S. Department of Labor – Office of the Inspector General

training to the remaining seven participants and were properly and accurately
reimbursed.

We recommend ETA:

   1. Direct grantees to reimburse the government for ineligible participants.
   2. Advise grantees and sub-grantees to comply with regulatory requirements, and
      develop and implement controls for verifying and documenting files, timely
      monitoring and accurate reporting of participant retention.
   3. Develop a process to report and measure placement when funding is temporary.
   4. Implement controls for validating management information.

ETA RESPONSE

In response to the report, ETA said that the report includes a serious misrepresentation
of SCSEP program design and function and of the actual performance results of the
SCSEP grants. The OIG avoided using accepted methodologies in a measure for
“entered employment” that is materially inaccurate and is applied in no other DOL
administered-employment program. The entered employment rate compares the total
number of participants who left the program and got jobs to all the participants who
actually left the program. In the report, the OIG includes in the denominator individuals
who were still receiving services, and for whom performance outcomes were not yet
known because they had not finished the program. ETA further stated that program
participants are not counted in any ETA measure of employment outcomes until an
individual finishes services and leaves the program.

The ARRA SCSEP funds were intended to provide SCSEP services to additional
unemployed low-income people during the Great Recession than then current, regular
funding allowed.

OIG CONCLUSION

ETA agreed with all but one of our recommendations. ETA did not agree to develop a
process to report and measure placement when funding is temporary. In its PY 2009
reporting, ETA calculated an entered employment rate of 47.6 percent. In calculating
this rate, ETA ignored over 16,000 participants who transferred to the regular SCSEP
program and by doing so, overstated the entered employment rate. While this
methodology could be used consistently by ongoing SCSEP programs, it obscures the
adequacy of temporary funding in achieving the desired outcomes. Using ETA’s
approach to calculate the ARRA placement rate is not an accurate representation of
ARRA’s placement performance for the period February 17, 2009, through
June 30, 2010, and is an overstatement of the ARRA placement rate for PY 2009.




                                                                Recovery Act: SCSEP Program
                                            3                    Report No. 18-13-002-03-360
                                                 Prepared by Ollie Green & Company, CPA’s
                               For U. S. Department of Labor – Office of the Inspector General


RESULTS AND FINDINGS
______________________________________________________________________

Objective 1 — To what extent did ETA ensure grantees administered and awarded
              ARRA funds properly to eligible participants?

           Overall, grantees enrolled only eligible participants.

Finding 1- Grantees generally enrolled only eligible participants into the ARRA
           SCSEP program for PY 2009 with few exceptions.

Our audit found that ETA had sufficient internal controls in place to ensure that grantees
enrolled only eligible participants. Only 2 of the 350 participants selected in our sample
were found to be ineligible because they did not meet the poverty level income
requirements. Grantees that enrolled these two participants indicated that the poverty
level income was incorrectly calculated and the errors totaling $11,573 in program costs
were not detected.

To determine the extent that ETA ensured states and national grantees administered
and awarded funds only to eligible participants, our audit process included identifying
and reviewing ETA’s controls, processes and procedures in place during the audit
coverage period (February 17, 2009, through June 30, 2010). To test the effectiveness
of these controls and procedures, we statistically selected 350 of 25,154 participants
from 14 of 639 states and sub-grantees and tested for eligibility compliance. Our audit
work included interviewing ARRA SCSEP program personnel to gain an understanding
about the states and sub-grantees’ eligibility methodology, processes, policies and
procedures. We then requested and received 350 participant case files from 14 states
and sub-grantees to review supporting documentation required to substantiate
participant eligibility. This work included verifying the age, the employment status and
the poverty level of the participant against supporting documentation maintained in the
participant case file. Our work also included validating residency and that the participant
had poor employment prospects.

Section 518 (a)(3)(A) of Title V of the Older Americans Act (OOA) of 1965 requires that
participants must be age 55 and older, unemployed and have an income of less than
125 percent of the Federal poverty level to be eligible for the SCSEP program. The Act
also states that the participant must also have poor employment prospects.

As indicated in Table 1 below, our audit found substantial (99.95 percent) eligibility
compliance for ARRA SCSEP participants enrolled in the SCSEP program. However,
two eligibility exceptions resulted from errors in calculating the participant’s poverty level
income. One state calculated family income based on net pay rather than gross pay.
One sub-grantee included only 75 percent of a railroad retirement pension when 100
percent should have been used to calculate family income. Preventive controls were not
in place to allow this $11,573 to have been put to better use elsewhere.


                                                                  Recovery Act: SCSEP Program
                                              4                    Report No. 18-13-002-03-360
                                                  Prepared by Ollie Green & Company, CPA’s
                                For U. S. Department of Labor – Office of the Inspector General




Table 1:    Actual Eligibility Findings

State/Grantee                      Number                Employment            Poverty
Territorial       States/Sub-      In Audit     Age        Status                Level
Government        Grantees         Sample     Findings    Findings             Findings

AARP                FL937            30
CA                  CA020            30
DE                  DE001            30                                          1 - ($5,850)
EW                  OR038            50
IL                  IL001            25
IL                  IL007             7
MS                  OH204             9
MD                  MD007             3
NCOA                NY076            40
NCOA                WV048            20                                          1 – ($5,722)
PR                  PR001            40
SER                 IL009            18
SSA                 IA077            22
SSA                 AL008            26
Total                                350                                        2 – ($11,573)




                                                                  Recovery Act: SCSEP Program
                                              5                    Report No. 18-13-002-03-360
                                                 Prepared by Ollie Green & Company, CPA’s
                               For U. S. Department of Labor – Office of the Inspector General




Objective 2 — To what extent have participants been trained and placed under
              these grants and did they continue employment?

           Grantees trained, but did not always document case files and conduct timely
           follow-ups to monitor employment, and grantees did not reach the 23 percent
           PY 2009 placement goal.

Finding 2 – Grantees did not always maintain required training documentation in
            the participant case file.

PARTICIPANT TRAINING

Generally, we found evidence that grantees trained most participants enrolled in the
ARRA SCSEP program. We found that 306 of 350 (87.4 percent) of the participants
selected from the 25,154 participants enrolled were trained. For the remaining 44 of the
350 (12.6 percent) participants, their case files had no documented evidence of training.
Of the 44 files with missing documentation, 40 files were from the same grantee whose
staff was not aware of the requirement to document training in the participants’ files. We
also found that 108 of the 350 participants’ files (30.9 percent) did not include IEP.
Because of this absence of training documentation and IEP there was no assurance
that these participants received training that could assist them in obtaining unsubsidized
employment.

To determine the extent of participants training, we interviewed SCSEP state/grantee
program personnel to gain an understanding about the host agency’s training
methodology, processes, policies and procedures. We then statistically selected 350 of
25,154 participants from 14 of 639 states and sub-grantees and tested case file records
to determine the extent of participant training. This process included reviewing training
documentation in the participant case file to verify the types of training completed by the
participant and training completion dates. Table 2 below illustrates the ARRA training
findings resulting from our audit.

Five states and sub-grantees were responsible for all 108 instances of missing IEP.
One grantee (PR PR001) indicated that its program staff was not sufficiently trained and
did not complete the required IEP because they were not aware of the requirement.
This grantee also indicated that it did not have sufficiently trained staff to implement the
ARRA SCSEP program but accepted the funds so that the funds would not be returned;
NCOA NY076 indicated that their focus was on enrollment and recruitment; NCOA
WV048 indicated that the initial application contained sufficient information to substitute
for the IEP; SSA AL008 indicated that per grantee policy, they did not prepare IEP until
90 days after enrollment and that these participants had exited within that 90-day
period; and DE-DE001 indicated that the omitted IEP was an oversight.



                                                                 Recovery Act: SCSEP Program
                                             6                    Report No. 18-13-002-03-360
                                                   Prepared by Ollie Green & Company, CPA’s
                                 For U. S. Department of Labor – Office of the Inspector General




Table 2:     Actual Training Findings
                                                                                  Number of
                                            Number of             No. of       Participant Case
                                         Participant Case      Participant       Files with No
State/Grantee/      State/Sub-            Files In Audit     Case Files With     Documented
Territorial Gov’t   Grantee                   Sample          No IEP In File    Training In File

AARP                    FL937                  30
CA                      CA020                  30
DE                      DE001                  30                   1
EW                      OR038                  50
IL                      IL001                  25
IL                      IL007                   7
MS                      OH204                   9
MD                      MD007                   3
NCOA                    NY076                  40                  40                 1
NCOA                    WV048                  20                  20
PR                      PR001                  40                  40                 40
SER                     IL009                  18
SSA                     IA077                  22
SSA                     AL008                  26                  7                  3
Total                                          350            108 (30.9%)        44 (12.6%)



Title 20 CFR 641.535(a)(3) requires grantees and sub-grantees to use the information
gathered during the assessment phase to develop IEP for participants. Title 20 CFR
641.540(a) states that grantees and sub-grantees must arrange skill training that is
realistic and consistent with the participant’s IEP. Title 20 CFR 641.560 requires
grantees to work closely with participants to develop an IEP and assessment to
determine what training the individual may need.

The absence of training documentation from the case files prevented us from
determining whether the 44 participants (12.6%) received appropriate training. Because
of the 108 (31.8%) missing IEP from the case file, 5 sub-grantees were not in
compliance with regulatory requirements. Participant files did not contain documents to
indicate that participants received training that qualified them for unsubsidized
employment.




                                                                   Recovery Act: SCSEP Program
                                               7                    Report No. 18-13-002-03-360
                                                            Prepared by Ollie Green & Company, CPA’s
                                          For U. S. Department of Labor – Office of the Inspector General

PARTICIPANT PLACEMENT

Finding 3 – Grantees did not meet the 23 percent placement goal established by
            the Department for Program Year 2009.

Our audit found that only 28 of the 350 ARRA SCSEP participants selected in our
sample were placed into unsubsidized employment. The overall placement percentage
rate for grantees selected in the sample was only 8.5 percent 3. This was substantially
below the 23 percent goal set by the Department for PY 2009. We found that 252 of the
350 (72.0 percent) participants selected in our sample were transferred to the regular
Title V SCSEP program or other subsidy programs after the ARRA funds had been
expended or at June 30, 2010, when the program ended. We also found that another 43
participants (12.2 percent) voluntarily left the program while 27 (7.7 percent) left for
various other reasons. Table 3 below illustrates ARRA SCSEP program participant exit
and transfer activity from Recovery Act inception (February 17, 2009) through June 30,
2010.




3
    Adjusted for health, family care, institutionalization, and death in accordance with TEGL17-05.

                                                                                     Recovery Act: SCSEP Program
                                                             8                        Report No. 18-13-002-03-360
                                                         Prepared by Ollie Green & Company, CPA’s
                                       For U. S. Department of Labor – Office of the Inspector General




Table 3: Actual and Projected Participant Transfers and Exits

                                                                       Number of
                                                                      Participants
                                                                          That
                                   Number of                          Transferred       Number of
                                   Participant       Number of           to The        Participants
                                   Case Files       Participants        Regular            That
                                    Selected         Placed in           Title V       Voluntarily         Other
State/Grantee/         Sub-         In Audit       Unsubsidized          SCSEP           Left The        Participant
                                                                                                           4
Territorial Gov’t      Grantee      Sample         Employment           Program          Program            Exits

AARP                   FL937            30                4                 20                4               2
CA                     CA020            30                1                 26                1               2
DE                     DE001            30                0                 23                4               3
EW                     OR038            50                10                35                1               4
IL                     IL001            25                5                 16                3               1
IL                     IL007             7                0                  4                0               3
MS                     OH204             9                0                  9                0               0
MD                     MD007             3                0                  1                1               1
NCOA                   NY076            40                3                 22               13               2
NCOA                   WV048            20                0                 15                3               2
PR                     PR001            40                0                 38                2               0
SER                    IL009            18                2                 15                1               0
SSA                    IA077            22                1                 14                4               3
SSA                    AL008            26                2                 14                6               4

Total                                   350               28               252               43              27
                                                        (8.5%)           (72.0%)          (12.2%)          (7.7%)

                                                     Projected         Projected        Projected        Projected
                                                      2,264 5           18,234 6         2,935 7          1,723 8

For purposes of ARRA reporting, the “Unsubsidized Employment Placement Rate” was
calculated as follows:


4
  Include attendance, behavior, subsequent ineligibility, etc.
5
  We projected with 95 percent confidence that there were between 601 and 3,924 individuals placed in unsubsidized
employment with a point estimate of 2,264 individuals.
6
  We projected with 95 percent confidence that there were between 15,173 and 21,295 participants that transferred to
the Regular Title V SCSEP Program with a point estimate of 18,234 participants.
7
  We projected with 95 percent confidence that there were between 667 and 5,204 participants that voluntarily left the
program a point estimate of 2,935 participants.
8
  We projected with 95 percent confidence that there were between 649 and 2,797 participants left for various
reasons with a point estimate of 1,723 participants.




                                                                                  Recovery Act: SCSEP Program
                                                          9                        Report No. 18-13-002-03-360
                                                       Prepared by Ollie Green & Company, CPA’s
                                     For U. S. Department of Labor – Office of the Inspector General

Numerator = the number of participants selected in our sample that were exited into
“unsubsidized employment” who were still employed in the first quarter after the exit
quarter.

Denominator = the number of ARRA participants selected in our sample reduced by
TEGL- 17-05 Exclusions (health, Institutionalized, medical, family care and death).

In its PY 2009 Final ARRA Nationwide Roll-Up Report, ETA calculated the ARRA EER
or placement rate at 47.6 percent (2,348 9/4,935 10). In calculating this rate, ETA
eliminated from the denominator 16,808 ARRA participants who transferred to the
regular SCSEP program by June 30, 2010. ETA indicated that of the 16,808 who
transferred into the regular program on July 1, 2010, 7,528 exited the program by
December 31, 2011. Of those exiters, ETA indicated that 3,457 entered employment for
an EER (placement) rate of 45.9 percent. ETA did not comment on the placement
status of the remaining 9,280 (16,808 – 7,528) ARRA participants who transferred to the
regular program.

Using this approach to calculate the ARRA placement rate is not an accurate
representation of ARRA’s placement performance for the period February 17, 2009,
through June 30, 2010, and is an overstatement of the ARRA placement rate for PY
2009. While this methodology could be used consistently by ongoing SCSEP
programs, the result is not a true reflection of the performance measures of the ARRA
program which ended June 30, 2010.

Based on our statistical sampling results as illustrated in Table 3, we projected that
2,264 of the 25,154 participants enrolled in the ARRA SCSEP program were placed into
unsubsidized employment while another 18,232 were transferred to the regular SCSEP
Title V program after the ARRA program ended on June 30, 2010. We also projected
that 2,935 left the program voluntarily while 1,723 left for various other reasons.

As illustrated in Exhibit 1, states and sub-grantees cited the short duration of the ARRA
period, bad economy, enrollment problems, logistics, low participant skills, rural area
high unemployment, age discrimination and other reasons for their low placement rates.
Because of this low placement rate, the government did not reach its 23 percent PY
2009 placement goal and an excessive number of participants remained on a
government subsidy (Title V) and other subsidy programs after the ARRA funds had
been used at June 30, 2010.

Title 20 CFR 641.720 (a)(6)(iii) of the Federal Register dated September 1, 2010, states
that the minimum percentage for the expected level of performance for entry into
unsubsidized employment core indicator of performance is 23 percent for PY 2009.


9
  The numerator (2,348) is the number of ARRA SCSEP participants placed into unsubsidized employment by June
 30, 2010 as reported by ETA in its Final ARRA Nationwide Roll-Up Report.
10
   The denominator (4,935) is the number of ARRA SCSEP participants who exited the program by June 30, 2010 as
 reported by ETA in its Final ARRA Nationwide Roll-Up Report.

                                                                             Recovery Act: SCSEP Program
                                                      10                      Report No. 18-13-002-03-360
                                                Prepared by Ollie Green & Company, CPA’s
                              For U. S. Department of Labor – Office of the Inspector General

ETA disagreed with the approach taken by the OIG because it includes in the
denominator individuals who were still receiving services, and for whom performance
outcomes were not yet known because they had not finished the program. ETA further
stated that program participants are not counted in any ETA measure of employment
outcomes until an individual finishes services and leaves the program. However, ETA’s
calculation did not consider over 16,000 participants who transferred to the regular
SCSEP program and by doing so, overstated its entered employment rate.

PARTICIPANT CONTINUED EMPLOYMENT

Finding 4 – Grantee did not always conduct timely follow-ups required to verify
            continued employment.

Our audit found that 19 of the 28 (67.9 percent) participants placed into unsubsidized
employment met the common measures continued employment requirement. The
average period for continued employment for 26 of the 28 ARRA participants with
known employment periods placed into unsubsidized employment was 9.97 months.
Our audit found as indicated in Exhibit 2, that the maximum continued employment
period for unsubsidized employment for ARRA participants selected in our sample was
19.4 months.

Finally, Exhibit 2 illustrates two instances where one grantee (SSA-AL008) did not
timely conduct follow-ups required to monitor for continued employment. This sub-
grantee did not attempt to conduct required follow-ups for these two participants until 27
and 22 months respectively after their placement. At this point, the two participants
could not be located and the sub-grantee indicated that it could not find the employers.
Because of this departure from regulatory requirements, continued employment for
these two participants could not be determined.

TEGL 17-05 describes the common measures employment retention indicator as, “of
those who are employed in the first quarter after the exit quarter: The number of adult
participants who are employed in both second and third quarters after the exit quarter
divided by the number of adult participants who exit during the quarter.” Section 20 CFR
641.555(b) states that grantees must contact participants 6 months after placement to
determine if they have been retained by the employer or use wage records to verify
continued employment (OAA sec. 513(c)(2)(B)).




                                                                Recovery Act: SCSEP Program
                                            11                   Report No. 18-13-002-03-360
                                                 Prepared by Ollie Green & Company, CPA’s
                               For U. S. Department of Labor – Office of the Inspector General

Objective 3 — To what extent were employers who participated in On the Job
             Experience (OJE) properly and accurately reimbursed?

           Invalid data prevented the determination of how many employers
           participated in the program, but the six employers tested were properly and
           accurately reimbursed.

Finding 5 - Grantees did not provide a reliable OJE universe for use in our
            sampling plan.

We could not determine the extent to which employers who participated in the OJE
program were properly and accurately reimbursed because the OJE universe (279
participants) provided was not reliable. As illustrated in Table 4 below, 45 of the 52
participants selected in our sample were not enrolled in the OJE program. This
information was confirmed by sub-grantees NCOA WV048 and NCOA NY076 during
our audit. Table 4 also illustrates our sample selection of 20 OJE participants from
(NCOA WV048) and 25 OJE participants from (NCOA NY076). Our audit found that
neither sub-grantee had OJE activity. These samples were selected from a universe of
279 OJE participants provided by ETA. (The six employers who provided OJE training
to the remaining seven participants were properly and accurately reimbursed.)



Table 4: OJE Sample Selection and Enrolled OJE Participants
                                                         Number of       Number of
                                                        Participants    Participants
                                                        Selected In     Enrolled In
                                                         OJE Audit          OJE
Sub-grantee                                               Sample          Program
NCOA WV048                                                   20               0
NCOA NY076                                                   25               0
EW OR048                                                      4               4
AARP FL937                                                    3               3
Total                                                        52               7


We discussed our concerns about the integrity of the OJE universe with ETA on
January 23, 2012. ETA informed us that grantees may have checked the wrong box
required to identify OJE activity when entering data into the SCSEP national database.
Because we could not rely upon the integrity of the data provided, we were not able to
determine to what extent employers who participated in OJE program were properly and
accurately reimbursed.

The SCSEP Data Validation Handbook, Page 1, dated January 19, 2010, states that the
data validation initiative requires that all grantees validate the information that is used to
establish participant eligibility and to measure grantee performance. The SCSEP

                                                                 Recovery Act: SCSEP Program
                                             12                   Report No. 18-13-002-03-360
                                               Prepared by Ollie Green & Company, CPA’s
                             For U. S. Department of Labor – Office of the Inspector General

Performance and Results Quarterly Progress Report System (SPARQ) is a computer
system operated for, and on behalf of, the U.S. Department of Labor to evaluate
program performance and manage participant data. Without preventive data validity
controls, the accuracy and reliability of SPARQ performance outcomes is reduced.


RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training:

      1. Direct the two grantees to reimburse the government for ARRA funds spent on
         behalf of ineligible participants.

      2. Advise grantees to collaborate with their respective sub-grantees to ensure
         that they fully understand and comply with regulatory requirements to
         document participants’ employment skills and needs in IEP.

      3. Advise grantees to implement internal controls to ensure that verifiable
         documentation, such as employment training documentation and IEP are
         prepared and retained in participants’ case files.

      4. Develop a process to report and measure the placement rate for temporary
         funding that may be provided by Congress in the future.

      5. Advise grantees to implement internal controls to ensure timely monitoring and
         accurate reporting of retention in unsubsidized employment placement and
         that participants meet eligibility requirements.

      6. Develop and implement computer controls to prevent invalid information from
         entering its management information system.

We appreciate the cooperation and courtesies that ETA, states, national grantees, field
offices, sub-grantees and territorial governments extended to Ollie Green & Company,
CPA’s during this audit.




Ollie Green, MBA, CPA
Managing Partner




                                                               Recovery Act: SCSEP Program
                                           13                   Report No. 18-13-002-03-360
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                  14                   Report No. 18-13-002-03-360
                             Prepared by Ollie Green & Company, CPA’s
           For U. S. Department of Labor – Office of the Inspector General




Exhibits




                                             Recovery Act: SCSEP Program
                         15                   Report No. 18-13-002-03-360
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                  16                   Report No. 18-13-002-03-360
                                                 Prepared by Ollie Green & Company, CPA’s
                               For U. S. Department of Labor – Office of the Inspector General

                                                                                             Exhibit 1
Recovery Act Placements

Exhibit 1: Reasons Given By Sub-Grantees for Low Placement Rates


      Grantee/              Number      Number of                       Reasons Given By
       State/        Sub-   In Audit   Participants    Placement   States/Sub-Grantees For Low
No.   Territory   Grantee   Sample       placed       Percentage         Placement Rates
                                                                   Short duration of ARRA period.
                                                                   Logistics, time frame & Office space.
                                                                   Notification of program was
1     AARP        FL937        30           4            13%       extremely quick. Difficult to enroll
                                                                   that quickly & have staff trained and
                                                                   ready. Not enough time to get office
                                                                   space ready. Thought the period
                                                                   should have been extended.

2     CA          CA020        30           1            3%        Low skill level of participants.


3     DE          DE001        30           0            0%        Poor economy. Poor job prospects

                                                                   Lack of social skills
                                                                   Lack of job skills
4     EW          OR038        50           10           20%       Low employment prospects
                                                                   Bad economy


                                                                   Short run program. Started the
                                                                   program late. Needed more time for
5     IL          IL001        25           5            20%
                                                                   recruiting. Believed program was
                                                                   successful.


                                                                   Rural area-no industry
                                                                   Low employment prospects
6     IL          IL007        7            0            0%        Transportation-no public
                                                                   transportation
                                                                   Bad economy


7     MS          OH204        9            0            0%        Rural area with high poverty rate.


                                                                   No jobs available for people with low
8     MD          MD007        4            0            0%
                                                                   skills. Age issues.


                                                                   Program focus on recruitment and
                                                                   enrollment and not on placement
9     NCOA        NY076        40           3            8%
                                                                   because of short duration of ARRA
                                                                   program.


                                                                   Lack of job skills,
                                                                   Rural area-no industry
                                                                   Transportation-no public
10    NCOA        WV048        20           0            0%
                                                                   transportation
                                                                   Bad economy-only coal mining and
                                                                   logging

11    PR          PR001        40           0            0%


                                                                   Recovery Act: SCSEP Program
                                                 17                 Report No. 18-13-002-03-360
                                     Prepared by Ollie Green & Company, CPA’s
                   For U. S. Department of Labor – Office of the Inspector General
                                                    Unaware of placement criteria of
                                                    ARRA
                                                    Untrained Staff



                                                    Competitive job market in an area
                                                    with one of the highest
12   SER   IL009   18          2           11%
                                                    unemployment rates in the nation
                                                    (over 40% unemployment rate)


                                                    Factories shut down-competition
13   SSA   IA077   22          1           5%       with younger workforce
                                                    Possible age discrimination

                                                    Program services rural areas with
14   SSA   AL008   26          2           8%       fewer jobs available




                                                     Recovery Act: SCSEP Program
                                   18                 Report No. 18-13-002-03-360
                                                                  Prepared by Ollie Green & Company, CPA’s
                                                For U. S. Department of Labor – Office of the Inspector General

                                                                                                            Exhibit 2
      Recovery Act Continued Employment Duration
No.        Grantee/     State/      No. Of          No. Of       Unsubsidized       Was Common            Common Measures
            State/      Sub-     Participants     Participants   Employment           Measures              Employment
           Territory   Grantee     In Audit         Placed          Period          Employment               Retention?
                                   Sample                                        Retention Follow-Up            Y/N
                                                                                 Conducted Timely?
                                                                                         Y/N



 1     AARP            FL937         30                1          4.4 Months              Y                       N
                                                       1          9.0 Months              Y                       N
                                                       1          11.9 Months             Y                       Y
                                                       1          11.4 Months             Y                       Y
 2     CA              CA020         30                1           .4 Months             NA                      NA
 3     DE              DE001         30                0               NA                NA                      NA
 4     EW              OR038         50                1          14.1 Months             Y                       Y
                                                       1          14.0 Months             Y                       Y
                                                       1          11.5 Months             Y                       Y
                                                       1          11.4 Months             Y                       Y
                                                       1          11.1 Months             Y                       Y
                                                       1          12.1 Months             Y                       Y
                                                       1          12.8 Months             Y                       Y
                                                       1          13.4 Months             Y                       Y
                                                       1          19.4 Months             Y                       Y
                                                       1          2.6 months              Y                       N
 5     IL               IL001        25                1          10.1 Months             Y                       Y
                                                       1          5.9 Months              Y                       N
                                                       1          9.5 Months              Y                       Y
                                                       1          10.3 Months             Y                       Y
                                                       1          2. 7 Months             Y                       N
 6     IL              IL007         7                 0               NA                NA                      NA
 7     MS              OH204         9                 0               NA                NA                      NA
 8     MD              MD007         3                 0               NA                NA                      NA
 9     NCOA            NY076         40                1           11 Months              Y                       Y
                                                       1           10 Months              Y                       Y
                                                       1           7 Months               Y                       Y
10     NCOA            WV048         20                0               NA                NA                      NA
11     PR              PR001         40                0               NA                NA                      NA
12     SER             IL009         18                1           18 Months              Y                       Y
                                                       1           9 Months               Y                       Y
13     SSA             IA077         22                1           5 Months               Y                       N
                                                                            11
14     SSA             AL008         26                1          Unknown                 N                       N
                                                                            12
                                                       1          Unknown                 N                       N

              Totals                 350           28 (8.5%)       Average =        Total = 2 (No)         Total =19 (Yes)
                                                                  9.97 Months
                                                                                                     13                      14
                                                                                  Projected - 111         Projected- 1,698




      11
         Sub-grantee was not able to provide retention follow-up information. Follow-up was not conducted timely.
      12
         Ibid, Footnote 11
      13
         We projected with 95 percent confidence that there were between 2 and 347 exceptions with a point estimate of
      111 exceptions.
      14
         We projected with 95 percent confidence that there were between 302 and 3,091 participants that met the common
      measures with a point estimate of 1,698 participants.

                                                                                      Recovery Act: SCSEP Program
                                                                 19                    Report No. 18-13-002-03-360
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                  20                   Report No. 18-13-002-03-360
                                                    Prepared by Ollie Green & Company, CPA’s
                                  For U. S. Department of Labor – Office of the Inspector General

                                                                                       Exhibit 3
Recovery Act Audit Sites Selected

   Sample                  State/               Grantee          Site's            Amount
     No.                  Grantee                Code         City & State          Spent

     1                State of Illinois          IL001       Rockford, IL          $100,768.00

     2                State of Illinois          IL007       Springfield, IL        $54,360.00

     3       SER Jobs for Progress, Inc.         IL009       Waukegan, IL           $66,417.00

     4               State of Maryland          MD007       Centreville, MD         $10,556.00

     5        National Council on Aging         WV048      Buckhannon, WV          $132,177.00

     6        National Council on Aging         NY076       Rochester, NY          $486,700.00

     7           Mature Service, Inc.           OH204       Columbus, OH            $82,551.00

     8       Senior Service America, Inc         IA077       Sioux City, IA        $111,531.00

     9               State of Delaware          DE001       Wilmington, DE         $261,439.02

     10              State of California        CA020     San Bernardino, CA        $91,106.00

     11              Experience Works           OR038       St. Helens, OR         $903,696.00

     12      Senior Service America, Inc        AL008        Northport, AL          $81,979.00

               American Association of
     13           Retired Persons                FL937      Melbourne, FL          $190,744.00

     14                 Puerto Rico             PR001        San Juan, PR          $325,303.00


            Totals                                                               $2,899,327.02




                                                                     Recovery Act: SCSEP Program
                                                21                    Report No. 18-13-002-03-360
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                  22                   Report No. 18-13-002-03-360
                               Prepared by Ollie Green & Company, CPA’s
             For U. S. Department of Labor – Office of the Inspector General




Appendices




                                               Recovery Act: SCSEP Program
                           23                   Report No. 18-13-002-03-360
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                  24                   Report No. 18-13-002-03-360
                                                         Prepared by Ollie Green & Company, CPA’s
                                       For U. S. Department of Labor – Office of the Inspector General


                                                                                                   Appendix A
Background

The Recovery Act was signed into law by the President on February 17, 2009, to
preserve and create jobs, promote economic recovery, and assist those most impacted
by the recession. As of August 19, 2010, Congress provided $70.8 billion to DOL. See
Table 5 below.


Table 5: Department of Labor Recovery Act Funding, as of August 19, 2010
                                                                   Amount 15
Program                                                         (in millions)                           Percent
Unemployment Benefits                                                $66,000                              93.18
Employment and Training                                                 4,500                              6.36
Job Corps Construction and Rehabilitation                                 250                              0.35
Departmental Oversight                                                     80                              0.11
                                                                   16
Total                                                                $70,830                             100.00

The Recovery Act provided the U.S. Department of Labor with funds to, among other
things, provide summer employment opportunities for youth and increase employment
and training opportunities. The stated purposes of the Recovery Act are to:

     •   Preserve and create jobs and promote economic recovery;
     •   Assist those most impacted by the recession;
     •   Provide investments needed to increase economic efficiency by spurring
         technological advances in science and health;
     •   Invest in transportation, environmental protection, and other infrastructure
         that will provide long-term economic benefits; and
     •   Stabilize state and local government budgets, in order to minimize and avoid
         reductions in essential services and counterproductive state and local tax
         increases.

The Recovery Act requires agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars are being spent and recipients of these funds deliver programmatic results.

The Recovery Act provided an additional $120 million for current Senior Community
Service Employment Program grantees to supplement their PY 2009 funding. The
Recovery Act does not contain requirements for how grantees must spend the
additional funds. However, ETA guidance states that the agency expects SCSEP
grantees to use the extra resources to “expand the number of SCSEP participants

15
  The amount was obtained from the Recovery Act dated February 17, 2009.
16
  The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s
 Recovery Act activities.

                                                                                 Recovery Act: SCSEP Program
                                                        25                        Report No. 18-13-002-03-360
                                                Prepared by Ollie Green & Company, CPA’s
                              For U. S. Department of Labor – Office of the Inspector General

assigned to community service work, especially in the growth industries emphasized in
the Recovery Act (e.g., health care, child care, education, green jobs, energy efficiency,
and environmental services).”

The purpose of SCSEP is to foster individual economic self-sufficiency and offer job
opportunities in community service for unemployed low-income persons age 55 and
older. SCSEP awards formula grants to states and territories, and competitive grants to
non-profit national organizations to provide part-time, minimum wage employment, job
training and related services, and placement in unsubsidized employment.

SCSEP grantees serve about 90,000 participants per program year. While the eligibility
requirement is an income less than 125 percent of the Federal poverty level, nearly 90
percent of participants live at or below the poverty level. SCSEP has a dual purpose, as
authorized by the Older Americans Act, “to foster individual economic self-sufficiency
and to increase the number of participants placed in unsubsidized employment in the
public and private sectors, while maintaining the community service focus of the
program.”

SCSEP grantees include 56 units of state and territorial government, and 18
competitively selected national grantees. SCSEP-funded services are available in all
3,000 U.S. counties and territories. SCSEP funds are equitably distributed by a
statutorily-prescribed formula that considers the number of low-income seniors residing
in each state.

On March 18, 2009, ETA issued TEGL15-08 to provide all current SCSEP grantees with
further instructions and procedures for ARRA funds that were available on February 17,
2009 with a period of performance to June 30, 2010. This TEGL also extended the
period of performance of the current PY 2008 grants for an additional six months to
December 31, 2009.




                                                                Recovery Act: SCSEP Program
                                            26                   Report No. 18-13-002-03-360
                                                Prepared by Ollie Green & Company, CPA’s
                              For U. S. Department of Labor – Office of the Inspector General


                                                                               Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The objectives of our audit were to determine:

1.    To what extent did ETA ensure grantees administered and awarded ARRA funds
      properly to eligible participants?

2.    To what extent have participants been trained and placed under these grants and
      did they continue employment?

3.    To what extent were employers who participated in On the Job Experience (OJE)
      properly and accurately reimbursed?

Scope

Our performance audit covers the period from February 17, 2009, to June 30, 2010.
We conducted our fieldwork at 14 state and grantee locations (Exhibit 3) from
January 9, 2012, through February 10, 2012. Our performance audit was not designed
to, and we did not, perform a financial audit of the amounts obligated or expended at
any of the states, national grantees or territorial governments.

Our audit used statistical sampling principles. The ARRA SCSEP universe consisted of
74 states and grantees, 639 sub-grantees and 25,154 Recovery Act participants. The
universe was stratified and samples were selected from each stratum. The sample size
was 350 participants and random sampling was used to select the participants. A
confidence level of 95 percent was used with sampling precision of +/-5 percent. A
combined point estimate was calculated for all 74 states, national grantees and territorial
governments.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provided a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

Our audit methodology included conducting structured interviews and/or discussions
with officials at the ETA, state, national grantee and sub-grantee level to gain an
understanding about the internal controls, processes, systems and procedures used to
capture, compile, analyze and measure the information and data used by ARRA


                                                                Recovery Act: SCSEP Program
                                            27                   Report No. 18-13-002-03-360
                                                Prepared by Ollie Green & Company, CPA’s
                              For U. S. Department of Labor – Office of the Inspector General

SCSEP program personnel to ensure that only eligible participants were enrolled in the
Recovery Act SCSEP program. We also requested, received and analyzed
documentation from states, national grantees, and sub-grantees to determine the extent
of participant training, placement and continued employment; and about the processes
and procedures used to reimburse employers for training participants enrolled in the
OJE program.

We performed a data reliability assessment to ensure we were receiving complete and
accurate information for use in our audit testing and verification process. To determine
whether data was reliable, we requested from ETA and received a description and/or
flowchart of internal controls in place designed to ensure the integrity of data used for
fiscal and performance reporting. We reviewed systems data validation checks, edit
checks, report validation, data element validation and concluded that the data received
from ETA, states, national grantees and territorial governments was sufficiently reliable
for our audit purposes except for the OJE universe data.

Our sampling plan included the use of statistical sampling to determine participant
eligibility and the extent that grantees had trained and placed participants. Statistical
sampling was also used to determine the extent of continued employment of participants
who were placed in unsubsidized employment. We could not use statistical sampling to
determine the extent of employer OJE reimbursements as we could not obtain sufficient
information to establish an OJE universe for OJE sampling. OJE universe activity
information provided was found to be not sufficiently reliable to use in our sampling plan.

Our sampling plan used three (3)-stage stratified cluster sampling as illustrated below:

STAGE-1      Statistically selected a sample of 11 states, national grantees and territorial
             governments from a universe of 74 states, national grantees and territorial
             governments;

STAGE-2      Statistically selected 14 sub-grantees from a universe of
             639 sub-grantees;

STAGE-3      Statistically selected 350 participants from a universe of 25,154 participants
             enrolled by the 639 sub-grantees identified in stage 2.

We used a random sampling method with stratified design to provide effective coverage
of the units. To estimate the characteristics and sample sizes we used a confidence
level of 95 percent plus or minus 5 percent. Each unit was tested for multiple
characteristics as discrete variables involving nominal measures. An explanation of the
audit test results and relevance of the test to the audit’s objectives is provided in the
body of the audit report.

A performance audit includes gaining an understanding of internal controls considered
significant to the audit objectives, testing controls, and testing compliance with
significant laws, regulations and other requirements. For this engagement, we obtained


                                                                Recovery Act: SCSEP Program
                                            28                   Report No. 18-13-002-03-360
                                                Prepared by Ollie Green & Company, CPA’s
                              For U. S. Department of Labor – Office of the Inspector General

an understanding of ETA’s process for evaluating the integrity of fiscal and performance
data submitted by states and national grantees receiving Recovery Act formula funding.
The testing of internal controls over this process was not determined to be significant to
our audit objectives.

Criteria

We used the following criteria to accomplish our audit:

       •     The American Recovery and Reinvestment Act of 2009
       •     Training and Employment Guidance Letter 15-08 dated March 18, 2009,
             including Attachment D, TEGL15-07, TEGL26-07, TEGL 30-07, TEGL12-
             06
       •     Title V, Older Americans Act of 1965
       •     Older Americans Act Amendments, Pub. L. 109-365, 42 USC 3056
             et.seq., 20 CFR Part 641 Subpart G
       •     Federal Register: June 29, 2007 (Volume 72, Number, 125)
       •     March 4, 2009, Grant Allocation Letter from SCSEP Grant Officer
       •     Workforce Investment Act – Final Regulations
       •     OMB Memorandum 09-15, Updated Implementing Guidance for the
             American Recovery and Reinvestment Act of 2009, April 3, 2009
       •     Federal Register, April 9, 2004




                                                                Recovery Act: SCSEP Program
                                            29                   Report No. 18-13-002-03-360
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                  30                   Report No. 18-13-002-03-360
                                           Prepared by Ollie Green & Company, CPA’s
                         For U. S. Department of Labor – Office of the Inspector General


                                                                         Appendix C
Acronyms and Abbreviations

AARP       American Association of Retired Persons
ARRA       American Recovery and Reinvestment Act of 2009
CA         State of California
CFR        Code of Federal Regulations
DE         State of Delaware
DOL        Department of Labor
ERR        Entered Employment Rate
ETA        Employment and Training Administration
EW         Experience Works
IEP        Individual Employment Plan
IL         State of Illinois
MD         State of Maryland
MS         Mature Service, Inc.
NCOA       National Council On Aging, Inc.
OIG        Office of Inspector General
OJE        On the Job Experience
OAA        Older Americans Act
PR         Puerto Rico
PY         Program Year
SCSEP      Senior Community Service Employment Program
SER        SER Jobs for Progress, Inc.
SSA        Senior Service America, Inc.
TEGL       Training and Employment Guidance Letter




                                                           Recovery Act: SCSEP Program
                                       31                   Report No. 18-13-002-03-360
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                  32                   Report No. 18-13-002-03-360
                                           Prepared by Ollie Green & Company, CPA’s
                         For U. S. Department of Labor – Office of the Inspector General


                                                                          Appendix D
ETA Response to Draft Report




                                                           Recovery Act: SCSEP Program
                                       33                   Report No. 18-13-002-03-360
                  Prepared by Ollie Green & Company, CPA’s
For U. S. Department of Labor – Office of the Inspector General




                                  Recovery Act: SCSEP Program
              34                   Report No. 18-13-002-03-360
                                               Prepared by Ollie Green & Company, CPA’s
                             For U. S. Department of Labor – Office of the Inspector General


                                                                             Appendix E
Acknowledgements

Key contributors to this report were Ollie Green, MBA, CPA (Managing Partner), Fred
Howell (OIG Director of Recovery Act Audits), Lynda D. Sanford, MBA, CIA, OIG
Auditor, Susan Savitch, MS, CPA (Audit Manager), Andrea Morris, CPA (Audit
Manager), Sharon Adams, CIA, CPA (Audit Manager), Misty McCrary, MS, CPA,
(Senior Accountant), Nermina Mustafic (Staff Accountant), Elaine Styles (Staff
Accountant).




                                                               Recovery Act: SCSEP Program
                                           35                   Report No. 18-13-002-03-360
                      Prepared by Ollie Green & Company, CPA’s
    For U. S. Department of Labor – Office of the Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                      Recovery Act: SCSEP Program
                  36                   Report No. 18-13-002-03-360
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
